Case: 19-14658

Date Filed: 04/14/2020

Page: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 uscourts.gov

David J. Smith
Clerk of Court

April 14, 2020
Eric Bernard Scott
Wilcox SP - Inmate Legal Mail
470 S BROAD ST
PO BOX 397
ABBEVILLE, GA 31001
Appeal Number: 19-14658-J
Case Style: In re: Eric Scott
District Court Docket No: 4:13-cv-00072-WTM-GRS
Enclosed is the clerk's entry of dismissal of your petition for lack of prosecution pursuant to
Eleventh Circuit Rule 42-1(b), which is issued as the mandate of this court. See 11th Cir. R. 414.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Davina C Bumey-Smith, J
Phone#: (404) 335-6183
Enclosure(s)

PRO-8 Ltr Entry of Dismissal Mandamus

Case: 19-14658

Date Filed: 04/14/2020

Page: 2 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14658-J

In re: ERIC BERNARD SCOTT,
Petitioner.

On Petition for Writ of Mandamus to the United States District Court for the
Southern District of Georgia

ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this petition is hereby
DISMISSED for want of prosecution because the Petitioner Eric Bernard Scott failed to pay the
fi ling and docketing fees to the clerk of this court within the time fixed by the rules, effective
April 14, 2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Davina C Bumey-Smith, J, Deputy Clerk
FOR THE COURT - BY DIRECTION

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14658-J
In re:
ERIC SCOTT,
Petitioner.
On Petition for Writ of Mandamus from the
U.S. District Court for the
Southern District of Georgia

ORDER:
Eric Scott, a Georgia prisoner proceeding pro se, has filed a petition for a writ of
mandamus, arising from his 2005 28 U.S.C. § 2254 petition for habeas relief in the U.S. District
Court for the Southern District of Georgia and subsequent appeal in this Court. The district court
denied his § 2254 petition as time-barred and denied Scott a certificate of appealability (“COA”)
in 2006. Scott appealed, and this Court also denied him a COA. Scott seeks: (1) a ruling from this
Court on his motion to recall mandate, which he asserts has been pending since April 2015 in that
prior appeal; (2) a hearing on equitable tolling of his § 2254 petition; and (3) reinstatement of his
appeal from the district court’s denial of his § 2254 petition. He also moves for leave to proceed
in forma pauperis (“IFP”).
Scott seeks to file this mandamus petition pursuant to 28 U.S.C. § 1915(a). Section 1915(a)
provides that a United States court may authorize the commencement of any proceeding, without

prepayment of fees, by a person who submits an affidavit that includes a statement of assets that
he possesses, and indicates that he is unable to pay such fees. This Court, however, may dismiss
an action at any time if it determines that the allegation of poverty is untrue or the action or appeal
is frivolous. 28 U.S.C. § 1915(e)(2). In this case, Scott has attempted to establish poverty by way
of an affidavit of indigency and a prison account certification. Regardless of whether Scott has
established poverty, his mandamus petition is frivolous.
Mandamus is available “only in drastic situations, when no other adequate means are
available to remedy a clear usurpation of power or abuse of discretion.” Jackson v. Motel 6
Multipurpose, Inc., 130 F.3d 999,1004 (11th Cir. 1997) (quotation marks omitted). Mandamus
may not be used as a substitute for appeal or to control decisions of the district court in
discretionary matters. Id. The petitioner has the burden of showing that he has no other avenue
of relief, and that his right to relief is clear and indisputable. See Mallard v. U.S. Dist. Court, 490
U.S. 296, 309 (1989). “[A] writ of mandamus may issue only to confine an inferior court to a
lawful exercise of its prescribed jurisdiction or to compel it to exercise its authority when it is its
duty to do so.” In re Smith, 926 F.2d 1027,1030 (11th Cir. 1991) (quotation marks omitted).
This Court’s rules provide that an application to this Court for a COA may be considered
by a single circuit judge. 11th Cir. R. 22-l(c). The denial of a certificate of appealability, whether
by a single circuit judge or by a panel, may be the subject of a motion for reconsideration, but it
may not be the subject of a petition for panel rehearing or a petition for rehearing en banc. Id.
Successive motions for reconsideration are not permitted; a party may file only one motion for
reconsideration with respect to the same order. 11th Cir. R. 27-3.
Here, Scott has not presented a non-frivolous claim for mandamus relief. None of his
requests for this Court to act are cognizable in mandamus, as this Court may only compel a lower

2

federal court to exercise its authority, notact itself. See Smith, 926 F,2d at lO3@*fr§s0!±a&&s!flngyw««r
this Court to act itself by recalling the mandate in his previous appeal and reviewing again the
denial of his § 2254 petition. See id.
In any case, even if Scott’s requests were cognizable in mandamus, they would not present
any non-frivolous claim for mandamus relief. In essence, Scott challenges the dismissal of his
§ 2254 petition in the district court and this Court’s denial of a COA, and seeks further review of
those orders^ But he had the adequate alternative remedies of appealing to this Court after the
district court dismissed his § 2254 petition and moving for a COA, which he did, and petitioning
this Court for reconsideration after it denied him a COA. See 11th Cir. Rs. 22-1(c), 27-3. Thus,
he had adequate alternative remedies for the relief he now seeks, such that mandamus relief is not
appropriate. See Mallard,A9Q U.S. at 309.
Accordingly, Scott’s IFP motion is hereby DENIED, as his mandamus petition is
frivolous.

UNITED STATES CIRCUIT JUDGE

3

Case: 19-14658

Date Filed: 05/27/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-1465 8-J
In re:
ERIC SCOTT,
Petitioner.
On Petition for Writ of Mandamus from the
U.S. District Court for the
Southern District of Georgia
Before: GRANT and LUCK, Circuit Judges.
BY THE COURT:
Erie Scott, a Georgia prisoner proceeding pro se, moves for reconsideration Of our denial
of leave to proceed in forma pauperis (“IFP”) as to his petition for a writ of mandamus. His
mandamus petition arose from his 2005 28 U.S.C. § 2254 petition for habeas relief in the U.S.
District Court for the Southern District of Georgia and subsequent appeal in this Court. The district
court denied his § 2254 petition as time-barred and denied Scott a certificate of appealability
(“GOA”) in 2006. Scott appealed, and we also denied him a COA. Scott filed a motion to recall
mandate in December 2014, which we denied. In that motion, Scott argued he had also previously
filed a motion to recall the mandate that was tendered in November 2008 and was returned unfiied.
In his mandamus petition, Scott appeared to request: (1) a ruling on his motion to recall the
mandate in his prior appeal; (2) a hearing on his § 2254 petition; and (3) reinstatement of his appeal
in his § 2254 proceedings. In an order issued on March 19, 2020, we determined that Scott was

Case: 19-14658

Date Filed: 05/27/2020

Page: 2 of 2

not entitled to proceed IFP because his mandamus petition was frivolous. Specifically, we
concluded that none of Scott’s requests were cognizable in mandamus, as he requested this Court
to act itself. We further concluded that, even if his claims were cognizable, he had the adequate
alternative remedies of moving this Court fora COA with respect to his § 2254 proceedings, which
he did, and petitioning this Court for reconsideration after it denied him a COA.
A party seeking rehearing or reconsideration must specifically allege any point of law or
fact that we overlooked or misapprehended. See Fed. R. App. P. 40(a)(2). Mandamus is available
“only in drastic situations, when no other adequate means are available to remedy a clear
usurpation of power or abuse of discretion.” Jackson v. Motel 6 Multipurpose, Inc., 130 F.3d 999,
1004 (11th Cir. 1997) (quotation marks omitted). The petitioner has the burden of showing that
he has no other avenue of relief, and that his right to relief is clear and indisputable. See Mallard
v. U.S. Dist. Court, 490 U.S. 296, 309 (1989). “[A] writ of mandamus may issue only to confine
an inferior court to a lawful exercise of its prescribed jurisdiction or to compel it to exercise its
authority when it is its duty to do so.” In re Smith, 926 F.2d 1027,1030 (11 th Cir. 1991) (quotation
marks omitted).
Here, Scott does not raise any points of law or fact that we overlooked or misapprehended.
See Fed. R. App. P. 40(a)(2). First, Scott does not address the first ground for denying his IFP
motion—that his request for this Court to order itself to act by ruling on his motion to recall
mandate was frivolous because it was not cognizable in mandamus. See Smith, 926 F.2d at 1030.
Next, Scott cites no applicable authority supporting his assertion that we must issue an order
denying his motion to recall mandate. See Mallard, 490 U.S. at 309. Accordingly, as Scott has
not pointed to any facts or law that we overlooked or misapprehended in reaching its conclusions,
his motion for reconsideration is hereby DENIED.

2

V

1

>
\

1 ^

Case 4:05-cv-00151-WTM-GRS

Document 22

Filed 03/28/2006

^

4

Page 1 of 1

U.

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
SAVANNAH DIVISION

/■,/

Mi
i

ERIC BERNARD SCOTT,
Petitioner,

}
I

w

i

)
>

V.

}

KEVIN ROBINSON, WARDEN,

Case No. CV405-151
!

f
>
i

Respondent.

i

ORDER

1

Let a copy of this Report and Recommendation be served upon petitioner
and counsel for the respondent.

Any objections to this Report and

Recommendation must be filed with the Clerk of Court not later than April 12,
2006. The Clerk shall submit this Report and Recommendation together with any
objections to the Honorable William T. Moore, Jr., Chief Judge, on April 13,2006.
Failure to file an objection within the specified time means that this Report and
Recommendation may become the opinion and order of the Court, Nettles v.
Wainwright. 677 F.2d 404 (5th Cir. 1982), and further waives the right to appeal
the District Court's Order. Thomas v. Arn. 474 U.S. 140 (1985).

h

All requests for additional time to file objections to this Report and
Recommendation should be filed with the Clerk for consideration by the District
Judge to whom this case is assigned.
SO ORDERED this

day of March, 2006.
UNtl L'l) STATES MACISTIU'f I. JUDCT
SOUTHERN DISTRICT OF GEORGIA

i
i

am

i
r1- 4 's

pHMmmm.
UNITED STATES DISTRICT COURT

2l&jffR 12 W1l?52

SOUTHERN DISTRICT OF GEORGIA
XOIST.OF GA.

SAVANNAH DIVISION

ERIC BERNARD SCOTT,

l
.]

Petitioner,
i
V.

Case No. CV405-151

>
)

KEVIN ROBINSON, WARDEN,

i

)

Respondent.

j

ORDER
After a careful de novo review of the record in this case, the Court
concurs with the Magistrate Judge's Report and Recommendation, tjo which
objections have been filed. Accordingly, the Report and Recommendation
of the Magistrate Judge is adopted as the opinion of the Court.
SO ORDERED this /^ ^day of
1

A

, 2006.
\

WILLIAM T. MOORE, JR.. CHJKF JUDGE
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA

r

iA

1

"/

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUT

crissrtfJt

»

mr?',r..Trr »>c&K~.

FILED
US, COURT OF APPEALS
ELEVENTH CIRCUIT
.ST* .*«*■**

SEP 2 6 2005

NO. 06-13577-H

I
ERIC BERNARD SCOTT,

THOMAS K. KAHN
CLERK

Petitioner-Appellant;
versus

KEVIN ROBINSON.
Respondent-Appellee.

Appeal from the United States District Court for the
Southern District of Georgia
*.

ORDER:
To merit a certificate of appealability, appellant must show that reasonable jurists would find \f
debatable both (1) the merits of an underlying claim and (2) the procedural issues he seeks to raise.
See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel. 529 U.S. 473, 478, 120 S.Ct. 1595, 1600-01, 146 ^
L.Ed.2d 542 (2000). Appellant has failed to satisfy the second prong of Slack’s test because his
petition is plainly barred by the one-year statute of limitations under 28 U.S.C. § 2244(d). Guenther
v. Holt, 173 F.3d 1328,1331 (11th Cir. 1999); Wilcox v. Florida Dep’t. of Corrections, 158 F.3d
1209, 121 i (11th Cir. 1998). The motion for a certificate of appealability is DENTED.
Appellant’s motion for leave to proceed on appeal in forma pauperis is DENIED AS MOOT.

m-Vn
f 1K J

---------------- ----------- -—

UNITED STATES CIRCUIT JUDGE

\ :»-s

1

;

Case 4:05-cv-00151-WTM-GRS

Document 21

Filed 03/28/2006

Page 4 of 4

Corrections. 158 F.3d 1209, .1211 (11th Cir. 1998); 'Drew v. Dep’t of j
/

' Corrections. 297 F.3d 1278, 1296 (11th Cir. 2002). Accordingly, such
prisoners have until April 24, 1997, one year after the enactment of
/

*?' . *

r : )

.

AEDPA, to file a § 2254 motion. United States v. Moore. 344|F.3d 1313,

-A

t \
L* ' i- /

C '-'A
>

1320 (11th Cir. 2003).

2

The time during which a properly filed application for state postconviction relief is pending does not count toward the one-year limitations
period. 28 U.S.C. § 2244(d)(2). Petitioner’s state habeas petition was
pending until May 10,1996, .when the Georgia Supreme Court denied his
\

application for a certificate of probable cause to appeal. Petitioner then had
i

one year from that date in which to file a petition for habeas relief in this
Court. Petitioner filed the instant action on August 5,2005, over nine years
later. The instant action is extremely belated and, therefore, must be
r*

DISMISSED.
SO REPORTED AND RECOMMENDED this

day of

March, 2006.

UNITED STATES MAGISTRATE JUDGE
SOUTHERN DISTRICT OF GEORGIA
i

r
4
\

I

:

Case: 19-14658

Date Filed: 05/15/2020

Page: 1 of 1

FN THE UNITED STATES COURT OF APPEALS
:

FOR THE ELEVENS CIRCUIT
No. ] 9-14658-1
In re: ERIC BERNARD SCOTT,
L'-iCilD
544-

On Petition for Writ of Mandamus from the United States District Court for the
Southern District of Georgia
ORDER:
The. Appellant's motion for extension of time to file a motion for reconsideration out of
time is GRANTED.

xr

f

UNITED STATES CIRCUIT JUDGE

